                               TRAINING

                      EXECUTIVE SUMMARY
We found that the Training Unit in the Office of Administrative and Personnel
Management (OAPM) has taken several steps to enhance employee training. It has
conducted needs analyses in conjunction with the offices and divisions; automated the
training request form and other administrative processes; expanded the tuition
assistance program; disseminated training opportunities by e-mail and a training bulletin
board; and trained its staff on some of their tasks. A majority of Commission staff we
surveyed indicated that the training program was meeting their needs.
OAPM has indicated that it would like to further improve training, in conjunction with
management of the offices and divisions. We are recommending that management
implement a process to improve training, with OAPM as the facilitator.
Several possible training improvements are discussed below, including better
coordination of division-sponsored training with OAPM approved training; increasing the
use of technology to deliver course content and disseminate information on training
opportunities; ensuring that training is aligned with organizational and Commission
goals; allowing individual employees access to automated records of their training; and
improved processing of training documentation. These topics and others would be
considered through the recommended facilitated process.
We have modified the draft report to reflect the informal comments of OAPM, the
Chairman’s Office, the Northeast Regional Office, and the Philadelphia District Office.



                                  BACKGROUND
Commission training policy is set by the Associate Executive Director, Office of
Administrative and Personnel Management (OAPM), in consultation with the Office of
the Executive Director. Within OAPM, a Training Unit headed by the Training Officer
administers the program. This unit is a part of the Employee Relations and
Development Branch.

The Personnel Operation Policies & Procedures Manual (POPPS) contains the
Commission’s training regulations. It covers Individual Development Plans, the Tuition
Assistance Program, and training approval procedures, among other topics.

Training request forms (SF-182) are submitted to the Training Unit for training provided
by outside vendors. The employee’s first and second level supervisor and the
administrative contact sign the requests. After the Training Officer reviews and
approves the request, the employee is registered for the course. The Training Unit
                                                                                                                                                             Page 2


records training information in a training log and in an automated tracking system (On
Track). It sends a copy of the training form to the Office of the Comptroller (OC) for
obligation of funds.

Vendors submit invoices to OC, which obtains the approval of the Training Unit before
payment. The unit ensures that an approved training form supports the invoice.

For courses sponsored by OAPM (e.g., on computer applications, communication skills,
retirement planning), the employee first obtains approval from his or her supervisor.
Then, the employee e-mails a request to the Training Unit, which enrolls the employee in
the course.




                                          SCOPE AND OBJECTIVES
Our objective was to determine whether the employee training program was meeting the
Commission’s training needs effectively, and in compliance with applicable statutes and
regulations. We interviewed Commission staff, reviewed available documentation, and
conducted a survey of employees, supervisors and managers, and administrative
contacts.
Our review was limited to activities of the Training Unit, and did not include training
conducted by the program offices. It was performed between July and December 1999,
in accordance with generally accepted government auditing standards.



                                                            AUDIT RESULTS
We found that the training program is generally meeting the Commission’s needs, and
that the Training Unit has taken several steps to enhance employee training. It has
conducted needs analyses in conjunction with the offices and divisions; automated the
training request form and other administrative processes; expanded the tuition
assistance program; disseminated training opportunities by e-mail and a training bulletin
board; and trained its staff on some of their tasks. A majority of Commission staff we
surveyed indicated that the training program was meeting their needs.
OAPM has indicated that it would like to improve the training program and enhance its
customer service, rather than mostly concentrating on processing paperwork and
controlling training fund expenditures. Because of OAPM’s limited role, management of
the offices and divisions has the primary responsibility to improve training, in OAPM’s
view.
During our audit work, we identified several possible improvements to the training
program, which are discussed further below. Management could consider these
improvements and others in a consultative process, with OAPM acting as a facilitator
(OAPM is similarly acting as facilitator for a task force currently addressing workplace
violence). The objective of this consultative process would be to reach a consensus on
what steps are needed to improve training at the Commission.

__________________________________________________________________________________________________________________________________________________________________

Employee Training (Audit 305)                                                                                                            March 31, 2000
                                                                                                                                                             Page 3


Possible improvements, based on our audit work and the suggestions of Commission
staff, include the following:
•     Developing an overall vision statement for Commission training, and a detailed
      statement of management and OAPM expectations, as well as functional roles and
      responsibilities.
•     Developing performance measures for training, in accordance with the intent of the
      Government Performance and Results Act (GPRA). The performance measures
      could help align training expenditures with organizational and Commission goals and
      objectives.
•     Standardizing needs assessment to ensure offices and divisions provide consistent,
      useful information.
•     Improved information to management on the development of a training program,
      training procedures, and identification of training sources.
•     Enhanced sharing of ideas between offices and divisions, and better coordination
      and integration of division-sponsored training with OAPM-sponsored training.
•     Consideration of alternative organizational structures. For example, control of
      training expenditures could be decentralized, with divisions and offices receiving a
      budget as they do for travel and other expenses. Alternatively, OAPM could hire a
      recognized training expert at a high graded level (either as a consultant or employee)
      to provide direction for the Commission’s training efforts.
•     Allowing individual employees to access their own automated training records, to
      help them plan their career development and track their CLE/CPE coursework (many
      Commission attorneys and accountants have CLE/CPE requirements from state
      licensing bodies). Under the President’s Executive Order No. 13111 (January 12,
      1999), individual learning accounts for each Federal employee are to be established
      eventually.
•     Enhancing the use of technology to deliver courses and publicize available training,
      with appropriate security and recognizing budgetary constraints. Executive Order
      No. 1311 also directed Federal agencies to take steps to enhance employees’
      lifelong learning by using training technology. Our search of the Internet identified
      numerous agencies that had developed on-line courses.
•     Improved documentation of all training, including free, in-house training, through the
      appropriate training request form. OAPM officials indicated that periodically, some
      managers approve training for their staff without sending a completed training
      request form to the Training Unit. This can delay payment to vendors and make
      monitoring of training funds more difficult.
•     Development of procedures to address any perception that training funds are not
      being fairly allocated within an organization.
•     Development of criteria for prioritizing training requests when there are limited
      training funds.




__________________________________________________________________________________________________________________________________________________________________

Employee Training (Audit 305)                                                                                                            March 31, 2000
                                                                                                                                                             Page 4


Recommendation A
The management of the offices and divisions should consider ways to improve the
Commission’s training program, as discussed above. OAPM should act as the facilitator
for this process (by setting up and facilitating meetings of managers, sending out survey
questionnaires, etc.).




__________________________________________________________________________________________________________________________________________________________________

Employee Training (Audit 305)                                                                                                            March 31, 2000
